    CENTRAL REGIONAL OFFICE
             Limited Audit of Financial and Administrative Controls


                                     INTRODUCTION
We conducted a limited audit of selected financial and administrative
controls of the Central Regional Office (CRO). The audit procedures were
limited to interviewing CRO staff, reviewing supporting documentation, and
conducting limited tests of transactions. The purpose of the audit was to
provide the Commission with negative assurance that the controls were
adequate, implemented economically and efficiently, and in compliance with
Commission policies and procedures.1 Our audit was performed in
accordance with generally accepted government auditing standards from
November 2003 to January 2004.


                                      BACKGROUND
The Central Regional Office (CRO), assisted by the Salt Lake and Ft. Worth
District offices, is responsible for administering Commission programs,
subject to Commission oversight, in the states of Arkansas, Colorado, Kansas,
Nebraska, New Mexico, North Dakota, Oklahoma, South Dakota, Texas,
Utah and Wyoming. In carrying out its responsibilities, CRO exercises a
broad range of financial and administrative functions, including maintaining
time and attendance records, procuring supplies and services, arranging for
staff travel, preparing for contingencies, maintaining an inventory of
property, and recording budgeted and actual expenditures of the office.


                                    AUDIT RESULTS
During the limited audit described above, two material weaknesses in the
CRO's financial and administrative controls came to our attention, which are
described below.



1
  Negative assurance means that no material internal control weaknesses came to our attention during our
limited audit.


C E N T R AL R E G I O N AL O F F I C E ( AU D I T 3 8 2 )                      F E B R U AR Y 1 2 , 2 0 0 4
We informally discussed a number of non-material findings and
recommendations with CRO management. CRO generally concurred with the
findings and agreed to implement the recommendations.

EQUIPMENT INVENTORY
The Office of Information Technology (OIT) maintains inventory records of
automated data processing (ADP) equipment located at the regional and
district offices. The equipment has a barcode affixed that should match the
equipment listing in OIT’s inventory records. We attempted to match
selected items from OIT’s records to the actual items at the CRO, but could
not locate many of these items.

Additionally, the CRO did not have a copy of OIT’s inventory records, which
would help CRO ensure that the records are accurate.

         Recommendation A
         In consultation with the CRO, OIT should reconcile its inventory
         records with the CRO’s actual inventory of ADP equipment. OIT
         should provide CRO with a copy of its inventory records on a periodic
         basis and whenever significant changes are made.

OIT agreed with our recommendation and began addressing this issue when
we brought it to their attention.

X-RAY SCANNING MACHINE
In fiscal year 2002, all of the field offices were provided with x-ray scanning machines to
scan incoming mail and packages. CRO rarely uses its machine. Moreover, the staff told
us that they would have trouble identifying suspicious packages even if they used the
machine more often.

We will address this issue in an upcoming audit memorandum (no. 35), which covers all
of the field offices.




C E N T R AL R E G I O N AL O F F I C E ( AU D I T 3 8 2 )           F E B R U AR Y 1 2 , 2 0 0 4
